Report No. D-2008-013        November 8, 2007




      Government Purchase Card Controls
           at DOD Schools in Japan
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DoDEA                 Department of Defense Education Activity
DSO                   District Superintendent’s Office
DTO                   District Transportation Office
FAR                   Federal Acquisition Regulation
                              INSPECTOR GENERAL

                             DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704





                                                                       November 8, 2007

MEMORANDUM FOR DIRECTOR, DOD EDUCATION ACTIVITY


SUBJECT: Report on the Audit of the Government Purchase Card Controls at DoD
         Schools in Japan (Report No. D-2008-013)


         We are providing this report for your infonnation and use. No written response to
this report was required, and none was received. Therefore, we are publishing this report
in final form.

        We appreciate the courtesies extended to the staff. Questions should be directed
to James 1. Kornides at (614) 751-1400, ext. 211 or Mr. John K. IsseI at (614)751-1400,
ext. 212. See Appendix B for the report distribution. The team members are listed inside
the back cover.



                               By direction of the Deputy Inspector General for Auditing:

                                                          /2     ~-
                                          /aJ:f/~Y
                                         Paul J&faEetto, CPA

                                Assistant Inspector General and Director

                                  Defense Financial Auditing Service

                Department of Defense Office of Inspector General
Report No. D-2008-013                                                  November 8, 2007
   (Project No. D2007-D000FJ-0038.001)

                      Government Purchase Card Controls
                           at DoD Schools in Japan

                                  Executive Summary

Who Should Read This Report and Why? DoD Education Activity managers,
purchase cardholders, and approving officials should read this report because it discusses
the administration and management controls for the Japan District Government Purchase
Card Program.

Background. The DoD Office of Inspector General is required by Title 10, United
States Code Section 2784 to perform periodic audits to identify potentially fraudulent,
improper, and abusive uses of purchase cards; any patterns of improper card holder
transactions; and categories of purchases that should be made by means other than
purchase cards.

The Department of Defense Education Activity-Pacific Area Government Purchase Card
Program includes an Area headquarters office in Okinawa and school districts in Korea,
Okinawa, Japan, and Guam. This report includes our review of the Japan District. Japan
District cardholders incurred about 3,900 transactions worth over $1.8 million in charges
against their purchase cards for the period of review. A Government Purchase Card can
be used as a method of procurement or a method of payment.

Results. Controls over the use of the Government Purchase Card by the Japan District
were effective for the majority of the transactions we reviewed. We examined
135 Government Purchase Card transactions (valued at $225,788.36) at the Japan District
and found only minor discrepancies. The school district generally complied with
applicable DoD and DoD Education Activity regulations governing use of the
Government Purchase Card for the transactions we sampled.

Our review of the Japan District Government Purchase Card Program related to the 135
transactions did not identify any material management control weaknesses. See the
Background section of the report for the discussion of our review of internal controls.

Management Comments. We provided a draft of this report on September 19, 2007.
No written response was required, and none was received. Therefore we are publishing
this report in final form.
Table of Contents 


Executive Summary                                          i


Background                                                 1


Objectives                                                 2


Review of Internal Controls                                2


Controls Over the Use of the Government Purchase Card -

  Japan District                                           3


Appendixes                                                  

     A. Scope and Methodology                              6

     B. Report Distribution                                8 

Background
    The DoD Office of Inspector General is required by Title 10, United States Code
    Section 2784 to perform periodic audits of the DoD Government Purchase Card
    Program to identify:

           (A) potentially fraudulent, improper, and abusive uses of purchase cards;

           (B) any patterns of improper card holder transactions, such as purchases of
           prohibited items; and

           (C) categories of purchases that should be made by means other than
           purchase cards in order to better aggregate purchases and obtain lower
           prices.

    Use of the Government Purchase Card. The Government Purchase Card is the
    preferred method to purchase and to pay for micro-purchases, according to the
    Federal Acquisition Regulation (FAR) 13.2, “Actions At or Below the Micro-
    Purchase Threshold.” Use of the Government Purchase Card as a procurement
    and payment tool for micro-purchases is also defined in FAR 13.301,
    “Government-wide Commercial Purchase Card.” FAR 2.101 “Definitions,”
    September 28, 2006, defines a micro-purchase as an acquisition of supplies or
    services that is made using simplified acquisition procedures that are available for
    purchases that do not exceed a given micro-purchase threshold. The micro-
    purchase threshold amount during our period of review was $2,500, and it
    increased to $3,000 in September 2006. The new threshold does not affect the
    results of this audit. For purchases made outside the United States, the threshold
    is $25,000. Also, the Government Purchase Card may be used as an ordering and
    payment mechanism for orders above the micro-purchase threshold. When used
    as an ordering and payment mechanism, contractors may bill against the card.
    When the order is delivered, the contractor directly bills the purchase card
    account instead of issuing an invoice to the agency.

    DoD Education Activity. The DoD Education Activity (DoDEA) is a field
    activity under the Under Secretary of Defense for Personnel and Readiness.
    DoDEA operates schools throughout the world and provides education for
    students from preschool through grade 12 for eligible dependents of Armed
    Forces members and Federal government civilians.

    DoDDS-Pacific. DoDEA has three administrative areas:

       •	 DoD Dependents Schools, Pacific, and DoD Domestic Dependent
          Elementary and Secondary Schools, Guam;

       •	 DoD Dependents Schools, Europe; and

       •	 DoD Domestic Dependent Elementary and Secondary Schools, and DoD
          Dependents Schools, Cuba.

    We reviewed purchase card use in the Pacific Area, which includes three overseas
    school districts (Japan, Korea, and Okinawa) and a domestic school district
    (Guam). The Pacific Area headquarters is located at Torii Station, Okinawa,
    Japan. The Japan District headquarters is on Yokota Air Base, Japan.
                                         1

Objectives 

     Our audit objective was to assess whether use of the Government Purchase Card
     at Department of Defense Education Activity-Pacific was in compliance with
     applicable laws and regulations. This report addresses the Japan District portion
     of the audit. We also reviewed management controls over use of the purchase
     card. See Appendix A for a discussion of the scope and methodology and
     Appendix A for prior coverage related to the objectives.


Review of Internal Controls
     Japan District internal controls over the use of its Government Purchase Cards
     were generally effective as they applied to our audit objective. Our review of 135
     Government Purchase Card transactions disclosed no material internal control
     weaknesses.




                                          2

           Controls Over the Use of the Government
           Purchase Card - Japan District
           The transactions we reviewed showed that the Japan District effectively
           managed its Government Purchase Card Program. We examined 135
           purchase card transactions, which included 25 transactions from a District
           Superintendent’s Office (DSO) cardholder, 100 transactions from
           cardholders at 5 of the district’s schools, and 10 transactions from 2
           District Transportation Office (DTO) cardholders. The total value of the
           135 transactions was $225,788.36. Except for a few minor instances, we
           concluded that the cardholders in our sample complied with applicable
           DoD and DoDEA purchase card regulations. Our review of the purchase
           card transactions did not identify any material internal control weaknesses.


Control Environment
            Cardholders and Approving Officials. The Japan DSO, four schools
    and the DTO are physically located on Yokota Air Base. An additional 17
    schools are located on other military bases in Japan. The DSO had two
    cardholders and one approving official, the Chief of Logistics. The approving
    official for each school was physically located at the school, and the approving
    official was either the principal or an assistant principal of that school.

    We reviewed the internal control environment for the Japan District. Specifically,
    we tested the following key elements.

           Span of Control. The “Department of Defense Government Charge Card
    Guidebook for Establishing and Managing Purchase, Travel, and Fuel Card
    Programs,” January 20, 2006 (DoD Government Charge Card Guidebook),
    requires that not more than seven cardholders exist for each approving official.
    The Japan District span of control was appropriate. In each school, the
    cardholder was the supply technician, and the approving official was either the
    principal or an assistant principal. The DSO had two cardholders, and the
    approving official was the District Chief of Logistics. The DTO had five
    cardholders, and the approving official was the District Transportation
    Supervisor.

            Training. Properly trained individuals are necessary for a successful
    Government Purchase Card Program. According to the DoD Government Charge
    Card Guidebook, the agency program coordinator is responsible for establishing,
    maintaining, and monitoring purchase card training. The DoDEA “Government
    Purchase Card Training Guide,” August 2005, requires three mandatory training
    courses for participants in its Government Purchase Card Program. The three
    courses were the “Government Purchase Card Tutorial,” “Micro-purchases and
    Section 508,” and locally developed training offered by the Pacific Area APC.
    This last training requirement is focused on DoDEA-wide policies and procedures
    and any unique requirements for Pacific Area cardholders and approving officials.

    The Japan District cardholders and approving officials in our sample were current
    in their training requirements. We reviewed the training file and other documents
                                         3

    for seven of the eight cardholders in our sample and for the seven approving
    officials in our sample. We found that they were all current in their training
    requirements. We did not review training records for the eighth cardholder in our
    sample because the individual was no longer a current cardholder. We reviewed
    the training records only for the cardholders and approving officials in our
    sample. We did not review any training records for alternate approving officials
    or alternate cardholders.

            Purchasing and Reviewing Authorities. The DoD Government Charge
    Card Guidebook considers support from the highest management levels to be a
    strong management control. The approving official for the DSO was the Chief of
    Logistics. The approving official for each of the Japan District schools was either
    the principal or the assistant principal of the school. The approving official at the
    DTO was the District Transportation Supervisor. The Chief of Logistics, school
    principals, and the transportation supervisor are senior managers in the District.
    High-level management was appropriately involved in the oversight of the
    Government Purchase Card Program.

           Annual Reviews. The DoDEA training guide requires that agency
    program coordinators in the local area perform annual reviews of its Government
    Purchase Card Programs. The Pacific Area agency program coordinator
    conducted the reviews for the Japan District, and his reviews identified some
    minor concerns at the schools and the DSO. These effective reviews showed that
    the Pacific Area agency program coordinator has appropriate oversight of the
    Government Purchase Card Program for the Japan District.

            Separation of Duties. Maintaining the proper separation of duties is a
    mandatory management control. The DoD Government Charge Card Guidebook
    states that key duties such as making purchases, authorizing payments, certifying
    funding, and reviewing and auditing functions should be assigned to different
    individuals to minimize the risk of loss to the government. At the DSO and the
    five Japan District schools, the cardholders were often the requestors for
    purchases. However, because the school’s purchase cardholder was also the
    supply technician, these occurrences were not unexpected. For the 135
    transactions tested, the Chief of Logistics, the transportation supervisor, or the
    school’s principal or an assistant principal approved the purchases and affirmed
    that the purchases were proper.


Purchase Card Transaction Results
    We examined 135 purchase card transactions from the DoDEA Japan District to
    assess compliance with applicable guidance. The 135 transactions included 25
    transactions from the DSO cardholders and 100 transactions from the cardholders
    at five of the district’s schools. We also reviewed 10 transactions from the DTO.

    For each of these transactions, we verified whether it satisfied the following four
    attributes of a valid purchase card transaction:
    Determination of a Legitimate Government Purchase. We determined
    whether each purchase transaction was a legitimate government purchase by
    reviewing either DoDEA Form 8052, “Request for Approval Prior to Government
    Purchase Card Purchase” or the DoD Dependents Schools-Pacific “Government
                                           4

    Purchase Card Pre-Approval Purchase Form.” We were not always able to
    determine the legitimacy of the purchases by the forms alone and were required to
    conduct follow-up interviews with Japan District cardholders for purchases we
    considered questionable. For example, we questioned the purchase of food items
    from the commissary. The cardholder explained that the food was required by the
    home economics teacher for her home economics class. We also questioned the
    repair of a “scooter.” The “scooter” was actually a small truck used by the school
    to transport cargo, equipment and other items.
    Japan District cardholders were required to obtain prior approval from the
    approving official before making a credit card purchase. Approving officials
    approved all sampled purchase transactions from the Japan District.
    Independent Receipt and Acceptance. We found that cardholders were the
    requestors for 56 of the purchase transactions in our sample. However, because
    each school’s cardholder was the supply technician, this was not unexpected. In
    addition, cardholders made over-the-counter purchases. We consider purchasing
    and receiving goods to be part of a cardholder’s normal duties. The Japan District
    mitigated the potential adverse effects of not having independent receipt and
    acceptance with compensating management and reconciliation controls. These
    included prior approval by the approving official for all purchases made,
    reconciliation of the cardholder’s monthly statements, and periodic reviews by the
    DoDDS Pacific Area Headquarters office.

    Cardholder Reconciliation. Cardholders are required to reconcile their monthly
    statements. U.S. Bank provides monthly statements to cardholders and approving
    officials. Our audit disclosed that all monthly statements reviewed were
    appropriately reconciled.
    Approving Official Review. DoDEA regulations require approving officials to
    pre-approve purchase card transactions and to review and sign the monthly
    statements. Our audit disclosed that all monthly statements were reviewed and
    approved, with one exception. An approving official did not sign one
    cardholder’s reconciled monthly statement. However, the approving official had
    reviewed the purchases on the approving official’s copy of the monthly statement.
    As such, we considered the failure to sign this individual cardholder’s statement
    to be an unintentional oversight, and not a recurring problem or internal control
    weakness.

Conclusion
    Japan District internal controls over the use of its purchase cards were generally
    effective. Our review of 135 purchase card transactions revealed proper
    compliance with applicable regulations and no material internal control
    weaknesses.




                                         5

Appendix A. Scope and Methodology 

   We conducted this performance audit from March through September 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   The audit assessed whether DoD Education Activity Department of Defense
   Dependent Schools-Pacific, Japan District use of the Government Purchase Card
   was in compliance with applicable laws and regulations. We also reviewed the
   management's internal control program over use of the purchase card.

   We judgmentally selected 135 purchase card transactions, valued at $225,788.36,
   made by cardholders in the Japan District. The transactions we selected covered
   the period September 1, 2005 through August 30, 2006. During this period, the
   Japan District had a total of 3,900 purchase card transactions, valued at
   $1.8 million. The 135 transactions included 25 transactions from the Japan
   District Superintendent’s Office and 100 transactions from 5 of the district’s
   schools. We also reviewed 10 transactions from the District Transportation
   Office. Because we used judgmental sampling techniques to select the
   transactions for our review, we have not made statistical projections.

   To perform this audit, we examined documents at the Japan District
   Superintendent’s Office and District Transportation Office on Yokota Air Base.
   The documents examined included purchase card requests, vendor invoices or
   receipts, purchase card logs, receiving reports, U.S. Bank purchase card monthly
   statements, training documents, and other documents as needed for each of our
   sample items.

   Use of Computer-Processed Data. We did not evaluate the controls of the U.S.
   Bank system that processes purchase card transactions. The Defense Manpower
   Data Center obtained purchase card information from U.S. Bank and provided it
   to the DoDIG Data Mining Division. The DoDIG Data Mining Division then
   provided the data to us. We assessed the data reliability by comparing the
   transaction data provided to us to source documents in the transaction files.
   Source documents included vendor invoices and monthly statements from U.S.
   Bank. The lack of an evaluation of the controls over computer-processed data did
   not affect the results of the audit.

   Use of Technical Assistance. The DoDIG Data Mining Division assisted with
   the audit by providing us with the DoDEA-Pacific purchase card transactions.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage on one aspect of the Financial Management high-risk area.




                                       6

Prior Coverage
     During the last 5 years, Department of Defense Inspector General (DoD IG)
     issued 3 reports discussing DoD Education Activity government purchase card
     programs. Unrestricted DoD IG reports can be accessed at
     http://www.dodig.mil/audit/reports/index.html

DoD Inspector General
     Report No. D-2008-001, “Government Purchase Card Controls at DoD Schools in
     Korea,” October 11, 2007

     Report No. D-2007-092, “Government Purchase Card controls at DoD Schools on
     Okinawa,” May 8, 2007

     Report No. D-2005-006, “Overseas Purchase Card Transactions by DoD
     Dependents Schools-Europe,” October 20, 2004




                                        7

Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense for Personnel and Readiness
  Director, DoD Education Activity
  Director, Department of Defense Dependents School-Pacific
  District Superintendent, Japan District

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement
House Subcommittee on National Security and Foreign Affairs




                                          8

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
John K. Issel
Peter G. Bliley
Walter J. Carney
Karen Bennett
Ellen Kleiman-Redden
